                                                             O FFICE OF A UDIT S ERVICES , R EGION VII
                                                                   601 E AST 12 TH S TREET , R OOM 0429
                                                                            K ANSAS C ITY , MO 64106
March 7, 2012

Report Number: A-07-11-00365

Ms. Suzanne M. Gannon
Executive Director and Chief Financial Officer
MedUS Services, LLC
HealthNow NewYork, Inc.
257 West Genesee Street
Buffalo, NY 14202

Dear Ms. Gannon:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Audit of HealthNow New York, Inc.’s Unfunded Pension
Costs for 1995 Through 2006. We will forward a copy of this report to the HHS action official
noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact Jenenne Tambke, Audit Manager, at (573) 893-8338, extension 21, or
through email at Jenenne.Tambke@oig.hhs.gov. Please refer to report number A-07-11-00365
in all correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Ms. Suzanne M. Gannon

Direct Reply to HHS Action Official:

Ms. Deborah Taylor
Director and Chief Financial Officer
Office of Financial Management
Centers for Medicare & Medicaid Services
Mail Stop C3-01-24
7500 Security Boulevard
Baltimore, MD 21244-1850 
 



    Department of Health and Human Services
                OFFICE OF 

           INSPECTOR GENERAL 





             AUDIT OF 

    HEALTHNOW NEW YORK, INC.’S 

     UNFUNDED PENSION COSTS 

      FOR 1995 THROUGH 2006 





                           Daniel R. Levinson

                            Inspector General 


                              March 2012 

                             A-07-11-00365 

 



                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
 




                               Notices 

 
 
         THIS REPORT IS AVAILABLE TO THE PUBLIC

                          at http://oig.hhs.gov

     Section 8L of the Inspector General Act, 5 U.S.C. App., requires
     that OIG post its publicly available reports on the OIG Web site.

    OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

     The designation of financial or management practices as questionable,
     a recommendation for the disallowance of costs incurred or claimed,
     and any other conclusions and recommendations in this report
     represent the findings and opinions of OAS. Authorized officials of the
     HHS operating divisions will make final determination on these matters.

 
 


                                  EXECUTIVE SUMMARY 


BACKGROUND

During our audit period (plan years 1995 through 2006), HealthNow New York, Inc.
(HealthNow), administered Medicare Part B and Durable Medical Equipment Regional Carrier
operations under cost reimbursement contracts with the Centers for Medicare & Medicaid
Services (CMS).

Beginning with fiscal year 1988, CMS incorporated segmentation requirements into Medicare
contracts. The contracts specify segmentation requirements and require the separate
identification of unfunded costs for the Medicare segment and the business units comprising the
rest of the company, which are aggregated and identified as the “Other” segment.

OBJECTIVE

Our objective was to determine whether HealthNow:

    	 funded pension costs for plan years 1995 through 2006 in accordance with the Federal
       Acquisition Regulation (FAR) and Cost Accounting Standards (CAS) and

    	 identified and properly accounted for any unallowable unfunded pension costs.

SUMMARY OF FINDINGS

HealthNow did not properly fund the pension costs allocable to the Medicare contracts in
accordance with the FAR and CAS for plan year 1996. In addition, HealthNow did not identify
or properly account for unallowable unfunded pension costs. As a result of these errors,
HealthNow understated the January 1, 2007, accumulated unallowable unfunded pension costs
by $133,371 ($21,189 for the Medicare segment plus $112,182 for the “Other” segment).

RECOMMENDATIONS

We recommend that HealthNow:

    	 identify $133,371 of accumulated unallowable unfunded pension costs ($21,189 as an
       unallowable component of the Medicare segment pension costs and $112,182 as an
       unallowable component of the “Other” segment pension costs) as of January 1, 2007; and

    	 properly identify, and update with interest, unallowable unfunded pension costs in
       subsequent years.




                                                i
 
 


AUDITEE COMMENTS

In written comments on our draft report, HealthNow described corrective actions that it planned
to take, actions that were in accordance with our first recommendation. HealthNow did not
directly address our second recommendation. HealthNow’s comments are included in their
entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing HealthNow’s comments, we maintain that our findings and both of our
recommendations remain valid.




                                               ii
 
                                            INTRODUCTION 


BACKGROUND

HealthNow New York, Inc., and Medicare

During our audit period (plan years 1995 through 2006), HealthNow New York, Inc.
(HealthNow), administered Medicare Part B and Durable Medical Equipment Regional Carrier
(DMERC) operations under cost reimbursement contracts with the Centers for Medicare &
Medicaid Services (CMS). I

In claiming costs, contractors must follow cost reimbursement principles contained in the
Federal Acquisition Regulations (FAR), Cost Accounting Standards (CAS), and Medicare
contracts..
contracts

Since its inception, Medicare has paid a portion of the annual contributions made by contractors
to their pension plans. The payments are allowable pension costs under the FAR and its
predecessor, the Federal Procurement Regulations (FPR). In 1980, the Medicare contracts and
the FPR incorporated CAS 412 and 413.

Cost Accounting Standards

The CAS works to ensure stability between contract periods and requires that pension costs be
consistently measured and assigned to contract periods and allocated to cost objectives, including
        contracts.. On March 30, 1995, the Office of Federal Procurement Policy, Cost
Federal contracts
Accounting Standards Board, revised the CAS relating to accounting for pension costs applicable
with the start of the first accounting period thereafter.

The revised CAS removed the regulatory conflict between the funding limits of the Employee
Retirement Income Security Act of 1974 (ERISA) and the period assignment provisions of the
CAS. The transition provisions of the new rule (48 CFR § 9904.412-64) allow the reassignment
of prior period pension costs, with interest, which were not funded because they lacked tax
deductibility.

The CAS revision does not remove the requirement to fund pension costs with contributions that
are not in conflict with ERISA. If a contractor could have funded pension costs and chose not to,
the costs and any accrued interest are unallowable in future periods. The unallowable portion of
pension costs must be updated, with interest, in accordance with the FAR and CAS.




1 The DMERC contractual relationship was terminated on June 30, 2006. The effective closing date for the
DMERC Medicare segment was January 1,2007. We are reviewing this segment closing in a separate audit
(A-07-11-00366) of HealthNow. Unless otherwise noted, all subsequent references to Medicare segment pension
assets in the body of this report relate to the Medicare Part B segment pension assets.


                                                      1
Federal Acquisition Regulation

The FAR addresses the allowability of pension costs and requires that pension costs assigned to
contract periods be substantiated by funding. The FAR (48 CFR § 31.205-6(j)(2)(i) and (iii»)2
states: " ... pension costs ... assigned to the current accounting period, but not funded during it,
are not allowable in subsequent years .... Increased pension costs are unallowable if the increase
is caused by a delay in funding beyond 30 days after each quarter of the year to which they are
assignable. "

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether HealthNow:

    • 	 funded pension costs for plan years 1995 through 2006 in accordance with the Federal
        Acquisition Regulation (FAR) and Cost Accounting Standards (CAS) and

    • 	 identified and properly accounted for any unallowable unfunded pension costs.

Scope

Our review covered plan years 1995 through 2006. Achieving our objectives did not require that
we review HealthNow's internal control structure. However, we reviewed internal controls
related to the funding of pension costs to ensure that the pension costs had been funded in
accordance with the FAR and CAS.

We performed fieldwork at HealthNow's office in Buffalo, New York.

Methodology

The CMS Office of the Actuary developed the methodology used for computing CAS pension
costs based on HealthNow's historical practices.

In performing this review, we used information provided by HealthNow's actuarial consulting
firm, which included assets, liabilities, normal costs, contributions, benefit payments, investment
earnings, and administrative expenses. We reviewed HealthNow's accounting records, the
pension plan documents, annual actuarial valuation reports, and Form 5500 Series disclosure
documents. 3 Using these documents, the CMS Office of the Actuary calculated the assignable
CAS pension costs for each plan year of the period 1995 through 2006. The assignable CAS
pension costs for the period 1995 through 2006 were calculated for the Medicare segment, the

2 During the period covered by our review, FAR 31.205-6 was amended with sections being renumbered and
reworded. Refer to FAR 3 I .205-6G)(3)(i) and (iii) for relevant prior FAR citations.

3Employee benefit plans are required to file these forms with the U.S . Department of Labor and the Internal
Revenue Service.

                                                         2
DMERC Medicare segment, and the business units comprising the rest of the company, which
are aggregated and identified as the "Other" segment.

Additionally, the CMS Office ofthe Actuary determined the extent to which HealthNow funded
those costs with contributions to the pension trust fund. We reviewed the methodology for the
calculations and update of HealthN
                           HealthNow's
                                    ow's unfunded pension costs for plan years 1995 through
2006, for the Medicare segment, the DMERC Medicare segment, and the " Other" segment.

We performed this review in conjunction with our audits of Medicare segmentation
(A-07-11-00363) and pension costs claimed for Medicare reimbursement (A-07-11-00364); we
used the information obtained during those audits in this review.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                FINDINGS AND RECOMMENDATIONS

HealthNow did not properly fund the pension costs allocable to the Medicare contracts in
accordance with the FAR and CAS for plan year 1996. In addition, HealthNow did not identify
or properly account for unallowable unfunded pension costs. As a result of these errors,
HealthNow understated the January 1,2007, accumulated unallowable unfunded pension costs
by $133,371 ($21,189 for the Medicare segment plus $112,182 for the "O
                                                                     "Other"
                                                                        ther" segment).

UNALLOWABLE UNFUNDED PENSION COSTS

For Medicare reimbursement, pension costs must be (1) measured, assigned, and allocated in
accordance with CAS 412 and 413 and (2) funded as specified by part 31 of the FAR. The
Medicare contracts state
                   state:: "The calculation of and accounting for pension costs charged to this
agreement/contract are governed by the Federal Acquisition Regulation and Cost Accounting
Standards 412 and 413."

The revised CAS states that if a contractor could have funded pension costs and chose not to, the
costs and any accrued interest are unallowable in future periods. The unallowable portion of
pension costs must be updated, with interest, in accordance with the FAR and CAS.

For plan year 1996 we identified $64,118 of pension costs4 that HealthNow could have funded
with contributions as provided for by ERISA. However, HealthNow did not fund these costs in
this manner. As of January 1,2007, HealthNow had accumulated $133,371 in unallowable
pension costs ($21,189 for the Medicare segment plus $112,182 for the "O
                                                                       "Other
                                                                         ther"" segment). The
pension costs are unallowable because they were not funded within specific time periods set by

4   Total Company unfunded pension costs as of the end of the plan year.



                                                          3
 


the provisions of the FAR. Imputed interest on the unfunded costs is also unallowable pursuant
to the CAS. The $133,371 represents unfunded pension costs and imputed interest for the years
1995 through 2006.

RECOMMENDATIONS

We recommend that HealthNow:

    	 identify $133,371 of accumulated unallowable unfunded pension costs ($21,189 as an
       unallowable component of the Medicare segment pension costs and $112,182 as an
       unallowable component of the “Other” segment pension costs) as of January 1, 2007; and

    	 properly identify, and update with interest, unallowable unfunded pension costs in
       subsequent years.

AUDITEE COMMENTS

In written comments on our draft report, HealthNow described corrective actions that it planned
to take, actions that were in accordance with our first recommendation. HealthNow did not
directly address our second recommendation.

HealthNow’s comments are included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing HealthNow’s comments, we maintain that our findings and both of our
recommendations remain valid.




                                               4

 
 




    APPENDIX 





 
                                       APPENDIX: AUDITEE COMMENTS 



HealthNOWS'
2~7   West Genesee Street • Buffalo, New York 14202-2657




                                                                                           January 30, 2012



         Mr. Patrick J. Cogley 

         Regional Inspector General, Office of Audit Services 

         Region VII 

         601 East l21h Street 

         Room0429 

         Kansas City, Missouri 64106 


         Re: 	 Report Number: A-07-11-00365

         Dear Mt. Cogley:

         This letter is in response to the U.S. Department of Health & Human Services, Office of Inspector
         General, Office of Audit Services' draft report entitled "AUDIT OF HEALTHNOW NEW YORK INC'S
         UNFUNDED PENSION COSTS FOR 1995 THROUGH 2006" HealthNow New York Inc_ (HealthNow) has
         reviewed the draft report in conjunction with our actuaries at Hooker and Holcombe, Inc. Following
         are comments regarding the specific findings.

              • 	 HealthNow will establish and update with interest an unallowable unfunded pension cost as
                  of January 1, 2007 equal to $133,371. This is allocated as follows:
                      o 	 $21,189 to the Medicare Segment
                      o 	 $112,182 to the "Other" Segment

        This action is in accordance with the Recommendations stated in Report Number: A-07-11-00365.

         Health Now would like to thank the audit team for their professionalism and recognition of the
         ongoing operation during the audit. I am also grateful to Jenenne Tambke for the extension to
         respond to this draft report.

         If you have any questions, please contact me at 716.887.6922.


        r~ly,
        ~¥.( v·r-<- h. ~0 '
 _,.-suzan       M. Gannon 

                                                           t '}L.
        Exec ~ ve Director & CFO,                  dicare Operation 

        MedUS Services, LLC 

        HealthNow New York Inc. 


        CC: 	 Carmen L. Snell, Esq. 

              Christopher Leardini 

              Catherine M. Campbell 

